CERTIFICATE OF COMPLIANCE
No. 19-521
In the Supreme Court of the United States
CHARGEPOINT, INC .

v.

Petitioner,

SEMACONNEC'l', INC.,

R espondent.

As required by Supreme Court Rule 33. l(h), I, Jeremy Cooper Doerre, Counsel
of Record for Amicus Curiae Jeremy C. Doerre and a member of the Bar of this Court,
do hereby certify that the Brief of Jeremy C. Doerre as Amicus Curiae in Support of
Petitioner contains 5,911 words, excluding the parts of the document exempted by
Supreme Court Rule 33.l(d), and complies with the word limitations set out in Rule
33.l(g).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 20, 2019
Jeremy Cooper Doerre
Tillm.an Wright, PLLC
11325 N. Community
House Rd., Suite 250
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

